<html>
<title> - [H.A.S.C. No. 112-34]REVIEW OF THE IMPLEMENTATION PLANS FOR THE REPEAL OF LAW AND POLICIES GOVERNING SERVICE BY OPENLY GAY AND LESBIAN SERVICE MEMBERS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 112-34]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2012

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

               SUBCOMMITTEE ON MILITARY PERSONNEL HEARING

                                   ON

                      REVIEW OF THE IMPLEMENTATION

                      PLANS FOR THE REPEAL OF LAW

                     AND POLICIES GOVERNING SERVICE

                       BY OPENLY GAY AND LESBIAN

                            SERVICE MEMBERS

                               __________

                              HEARING HELD
                             APRIL 1, 2011




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                      U.S. GOVERNMENT PRINTING OFFICE
  65-805                   WASHINGTON : 2011
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c7a0b7a887a4b2b4b3afa2abb7e9a4a8aae9">[email&#160;protected]</a>  










                   SUBCOMMITTEE ON MILITARY PERSONNEL

                  JOE WILSON, South Carolina, Chairman
WALTER B. JONES, North Carolina      SUSAN A. DAVIS, California
MIKE COFFMAN, Colorado               ROBERT A. BRADY, Pennsylvania
TOM ROONEY, Florida                  MADELEINE Z. BORDALLO, Guam
JOE HECK, Nevada                     DAVE LOEBSACK, Iowa
ALLEN B. WEST, Florida               NIKI TSONGAS, Massachusetts
AUSTIN SCOTT, Georgia                CHELLIE PINGREE, Maine
VICKY HARTZLER, Missouri
               Michael Higgins, Professional Staff Member
                 Debra Wada, Professional Staff Member
                      James Weiss, Staff Assistant







                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Friday, April 1, 2011, Review of the Implementation Plans for the 
  Repeal of Law and Policies Governing Service by Openly Gay and 
  Lesbian Service Members........................................     1

Appendix:

Friday, April 1, 2011............................................    29
                              ----------                              

                         FRIDAY, APRIL 1, 2011
 REVIEW OF THE IMPLEMENTATION PLANS FOR THE REPEAL OF LAW AND POLICIES 
      GOVERNING SERVICE BY OPENLY GAY AND LESBIAN SERVICE MEMBERS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Ranking 
  Member, Subcommittee on Military Personnel.....................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Military Personnel.............................     1

                               WITNESSES

Gortney, VADM William E., USN, Director, Joint Staff, Joint 
  Chiefs of Staff................................................     4
Stanley, Hon. Clifford L., Under Secretary of Defense for 
  Personnel and Readiness, Co-Chair, Don't Ask, Don't Tell Repeal 
  Implementation Team............................................     3

                                APPENDIX

Prepared Statements:

    Davis, Hon. Susan A..........................................    35
    Stanley, Hon. Clifford L., joint with VADM William E. Gortney    37
    Wilson, Hon. Joe.............................................    33

Documents Submitted for the Record:

    ``D.A.D.T. Repeal Is Good for Recruiting, Commanding General 
      Says,'' by Andrew Keatts, The Daily Transcript, March 16, 
      2011.......................................................    45
    The Hon. Clifford L. Stanley's Responses to Questions 
      Submitted by the Hon. Joe Wilson...........................    46

Witness Responses to Questions Asked During the Hearing:

    Mrs. Davis...................................................    67
    Mrs. Hartzler................................................    67
    Mr. Scott....................................................    67

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
 
 REVIEW OF THE IMPLEMENTATION PLANS FOR THE REPEAL OF LAW AND POLICIES 
      GOVERNING SERVICE BY OPENLY GAY AND LESBIAN SERVICE MEMBERS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                             Washington, DC, Friday, April 1, 2011.
    The subcommittee met, pursuant to call, at 9:30 a.m. in 
room 2212, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
  SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Wilson. Ladies and gentlemen, I would like to welcome 
everyone to a meeting of the Subcommittee of Military Personnel 
of the House Armed Services Committee.
    I am very grateful to be serving as chair of this 
subcommittee. I am Congressman Joe Wilson from South Carolina, 
and our ranking member is Congresswoman Susan Davis of 
California. We have actually taken each other's place. And I 
always like to point out that she served with such distinction 
in a bipartisan manner, and I look forward to continuing a 
positive relationship.
    Today, the subcommittee has an opportunity to influence the 
future of the course of implementation of a change of law 
regarding the service of openly gay and lesbian service 
members.
    I was troubled by the process employed through appeal of 
the law known as ``Don't Ask, Don't Tell'' this past fall. I 
felt the repeal was rushed through Congress without adequate 
review and consideration of the full extent of the implications 
of repeal.
    I believe the lame-duck session was undemocratic, in that 
dozens of defeated Congress Members adopted a law with 
significant consequences but it failed to even pass a budget. 
It was a violation of the principles of representative 
democracy. Elected officials should be reflective of the views 
of the voters, and Congress Members who had voted then had been 
rejected for not reflecting the views of their constituents.
    I believe the comprehensive review chartered by the 
Secretary of Defense Gates was flawed, in that it was never 
asked of military members and families whether the law should 
be repealed and it took great liberties during the assessment 
process to count survey responses that directly expressed 
concern about the wisdom of repeal as being supportive of 
repeal.
    It is now essential that the Congress ask questions that 
were glossed over during the comprehensive review. We must get 
the process for considering the repeal of Don't Ask, Don't Tell 
on track and ensure that our military is truly prepared for 
open service of gays and lesbians. We must ensure that we do 
not make a mistake by allowing the repeal to move ahead when 
there is any possibility that it will put the combat readiness 
of our force at risk at a time that our Nation is in three 
wars, with worldwide instability.
    We have two excellent witnesses who are directly engaged in 
this process: Dr. Clifford L. Stanley, the Under Secretary of 
Defense for Personnel, Readiness and co-chair, Don't Ask, Don't 
Tell Repeal Implementation Team; and Vice Admiral William E. 
Gortney, United States Navy, director of the Joint Staff of the 
Joint Chiefs of Staff.
    At this time, I will turn to our Military Personnel 
Subcommittee ranking member, Susan Davis, for her opening 
statement.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 33.]

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mrs. Davis. Thank you. Thank you, Mr. Chairman.
    And, Dr. Stanley, we are certainly glad to have you back.
    And, Admiral Gortney, welcome to the committee.
    We appreciate both of you being here, and we look forward 
to hearing how the services are doing in their efforts to train 
the force in anticipation of the repeal of the Don't Ask, Don't 
Tell policy.
    Last year, as we all know, on December 22nd, the President 
signed into law H.R. 2965, the ``Don't Ask, Don't Tell Repeal 
Act of 2010.'' The law requires the President, the Secretary of 
Defense, and the Chairman of the Joint Chiefs of Staff--and, I 
would say, in consultation with the service chiefs--to transmit 
to Congress a written certification that they have considered 
the recommendation in the comprehensive review report and the 
report's proposed plan of action, that the Department has 
prepared the necessary policies and regulations needed to 
repeal the Don't Ask, Don't Tell policy, and that the policies 
and regulations are consistent with the standard of military 
readiness, military effectiveness, unit cohesion, and 
recruiting and retention of the Armed Forces.
    Once they have submitted their certification and 60 days 
have passed, the Don't Ask, Don't Tell policy will come to an 
end. And the underlying law, which prohibits gay, lesbian, and 
bisexual Americans from serving in uniform, will become 
history.
    Mr. Chairman, I think the debate is no longer really on 
whether or not to allow gay, lesbian, and bisexual Americans 
from serving in uniform. The issue that we are here to focus on 
today is how the services and the Department are preparing and 
informing leadership on how the policies and regulations that 
are being considered have an impact, if any, on military 
readiness, military effectiveness, unit cohesion, and 
recruiting and retention of the Armed Forces.
    I look forward to hearing how the training has been going; 
what, if any, issues have been raised during the training; and 
when the Department expects the services to provide their final 
input in order to move forward in allowing all Americans, 
regardless of sexual orientation, to serve in uniform.
    Thank you, Mr. Chairman. And I look forward to the hearing 
today.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 35.]
    Mr. Wilson. Thank you, Ms. Davis.
    And as we begin this morning, I have a unanimous consent 
request. At this time, I ask unanimous consent that the 
gentleman from Mississippi, Congressman Steve Palazzo, be 
recognized and granted a 5-minute period to ask questions of 
the witnesses after the members of the Military Personnel 
Subcommittee have been recognized.
    Without objection, so ordered.
    Additionally, at this time, I ask unanimous consent that my 
letter of March 8, 2011, to Secretary Stanley listing a series 
of questions, 49 questions, concerning implementations of the 
repeal and the March 30, 2011, reply from the Secretary with 
his response to the questions be entered into the record. The 
letters have been placed before the Members today.
    Without objection, so ordered.
    [The information referred to can be found in the Appendix 
on page 46.]
    Mr. Wilson. And, as you just heard, we actually are 
beginning a vote. And what we will do is recess at this time 
and return immediately and proceed. And it is just one vote; 
this is a miracle. And so, we will be back. And so, at this 
time, we will recess, and we will begin immediately with 
Secretary Stanley.
    Thank you.
    [Recess.]
    Mr. Wilson. Ladies and gentlemen, thank you. We have 
concluded that vote. We may have another vote relatively soon. 
But, again, we appreciate everyone accommodating. And I 
particularly want to thank the subcommittee members for their 
persistence to return. So this is a real testimonial to their 
commitment to service.
    At this time, we have Secretary Dr. Clifford L. Stanley.

   STATEMENT OF HON. CLIFFORD L. STANLEY, UNDER SECRETARY OF 
DEFENSE FOR PERSONNEL AND READINESS, CO-CHAIR, DON'T ASK, DON'T 
                TELL REPEAL IMPLEMENTATION TEAM

    Secretary Stanley. Well, good morning, Mr. Chairman and Ms. 
Davis and members of the committee. Thank you for inviting me 
and Vice Admiral Gortney to testify before you today.
    As you know, on December the 22nd, 2010, the President 
signed the enactment of repeal of Title X, section 654, the 
policy concerning homosexuality in the Armed Forces. And, 
subsequently, the Secretary of Defense directed me to lead the 
implementation process for the Department.
    As the Secretary testified, the Department will execute 
this change in a purposeful and careful manner. By organizing a 
Department of Defense [DOD] repeal implementation team, we have 
been able to synchronize the implementation of the services' 
relevant policy changes and delivered standardized training 
materials to all services on February 4th, 2011.
    Just 2 weeks ago, I testified before this same body and 
told you that, as Under Secretary of Defense for Personnel and 
Readiness, my focus is total force readiness, caring for our 
people, creating a culture of relevance and effectiveness and 
efficiency. I view the total force readiness as a mental, 
physical, emotional, and spiritual state of preparedness and 
resilience.
    Now, this policy change embodies that view of total force 
readiness. More simply put, it is also about respect. 
``Respect'' is not a word that I use lightly. It embraces the 
true meaning of honorable service. And ``respect'' is also a 
word that captures the indelible bond shared by all who serve, 
especially those who serve in harm's way.
    The training materials were developed--that have been 
developed are based upon the Comprehensive Review Working 
Group's support plan for implementation by a team of people 
from across all the services. Emphasis has been placed on 
leadership, professionalism, discipline, and respect, which we 
believe will enable any change in policy to be executed with 
minimal disruption to the force.
    Each service began training on or before March 1st, 2011. 
And while there is no department timeline or deadline for 
completion, the services anticipate that training will be 
completed by mid-summer.
    Every 2 weeks throughout the training process, the services 
have provided and will provide a report on the status of 
training. After having received the first 3 reports over the 
past 6 weeks, the last of which was submitted today, the 
services reported no issues or problems with training and that 
all is going well.
    It remains the policy of the Department of Defense that 
sexual orientation is a personal and private matter and to 
treat all members with dignity and respect. Leadership, 
professionalism, discipline, and respect will be essential to 
the implementation of this change in policy fairly and 
consistently.
    Rest assured that we are committed to making this historic 
change in a timely manner. And that is consistent with 
standards of military readiness, effectiveness, unit cohesion, 
and recruiting and retention in the Armed Forces.
    I want to thank you again for this opportunity to update 
you on our progress in this important policy. Thank you.
    Mr. Wilson. Thank you very much, Mr. Secretary.
    And, at this time, Vice Admiral William E. Gortney.

  STATEMENT OF VADM WILLIAM E. GORTNEY, USN, DIRECTOR, JOINT 
                  STAFF, JOINT CHIEFS OF STAFF

    Admiral Gortney. Thank you, Mr. Chairman, Mrs. Davis, 
distinguished members of the subcommittee. And good morning. I 
appreciate the opportunity to comment regarding the policy and 
procedures that have been put in place to support the 
implementation of the repeal of Don't Ask, Don't Tell.
    We have implemented a three-step process to support the 
successful repeal of the law, the first step being implementing 
or changing policies, the second step being training changes, 
and the third step, training the actual force. And we have 
achieved good progress in all three steps. The services have 
reviewed policies and directives that will require change and 
are on target to implement them upon effective date of repeal.
    The repeal implementation team of the Office of the 
Secretary of Defense, in full coordination with the services, 
developed standard training materials as well as effective 
plans to deliver that training. The services have implemented 
these plans and are proceeding smartly with the training of 
Tier I, who we call experts; Tier II, the leadership; and Tier 
III, the total force. Each service has implemented systems to 
track the training of their force.
    In order to assess our progress, the effectiveness of 
education and training, and identify any obstacles of 
unforeseen issues that could impact the force, we are receiving 
the biweekly reports that the Secretary mentioned from the 
Service, the Coast Guard, and the combatant commanders. These 
reports track the degree of progress in training the overall 
force and give commanders a direct line to the Chairman on 
issues that may emerge. The Chairman and the service chiefs 
also meet regularly to discuss this progress.
    We are indeed moving responsibly toward repeal. Training is 
under way, policies are under revision, and we are tracking the 
Department's progress. Our intent is to ensure that a 
preponderance of the force, including the Reserve and National 
Guard Bureau, is prepared expeditiously but in a careful and 
responsible manner.
    Repeal will occur 60 days after the certification required 
by law. The Secretary of Defense and the Chairman of the Joint 
Chiefs of Staff will certify only after careful consideration 
of the views of the Secretaries of the military departments, 
the military service chiefs, and the combatant commanders.
    The Secretary of Defense and the Chairman will not certify 
until, in their judgment, they are satisfied the force is 
prepared to implement the new policies and regulations 
consistent with our standards of military readiness, military 
effectiveness, unit cohesion, and recruiting and retention of 
the Armed Forces.
    We are proceeding deliberately and purposefully toward 
preparing the force and certifying their readiness. The law 
assured them of time to answer their questions and prepare for 
repeal. We appreciate this flexibility, as well as your 
confidence in the force and their leadership in implementing 
this law.
    Thank you for the opportunity to update you on the 
progress, and I look forward to your questions.
    [The joint prepared statement of Secretary Stanley and 
Admiral Gortney can be found in the Appendix on page 37.]
    Mr. Wilson. Thank you very much.
    And, as we proceed, we will be under a 5-minute rule. And 
we have a person above reproach, Michael Higgins, who is going 
to be the timekeeper. And he will maintain the time. And, 
actually, the 5-minute rule begins with me. And then, as we 
proceed, we may have time for two rounds, depending on the 
level of votes that we have.
    For both of you, a question I have--I hope that both of you 
are involved in the process of evaluating, training, and 
advising the Secretary of Defense and Chairman of the Joint 
Chiefs of Staff about whether to proceed with certification.
    And I have two questions. One is, what are the objective 
and subjective criteria you will use to conclude that the 
education and training program associated with the repeal of 
the law is, first, effective and, second, sufficiently complete 
to justify your recommendation that the Secretary of Defense, 
the Chairman of the Joint Chiefs of Staff, and the President 
proceed with certification?
    Secretary Stanley. First of all, thank you, Mr. Chairman.
    The objective criteria are very specific. The first is, 
make sure the policies and regulations are in sync. And we have 
about 87 policies that actually have to be reviewed and updated 
by the services.
    We also want to make sure that, objectively, as we go 
toward our confirmation process, or in this, that we have the 
Secretary of Defense, the Chairman of the Joint Chiefs of 
Staff, as well as the President of the United States, they are 
involved in that process. And that becomes also a part of it, 
as we look at the criteria for implementation. That is very 
specific.
    And then, also, we have subjective criteria that we are 
looking at, is ensuring that, in the commanders' judgment, we 
are looking at things like unit cohesion, standards of military 
readiness, effective recruiting and retention in terms of 
whether or not there has been any impact, as well as IG 
reports, inspector general reports, things like that, to look 
at.
    And I will ask my service counterpart to talk a little bit.
    Admiral Gortney. Yes, sir. The objective measures are 
really an easy part. The policy regulations that have to be 
changed, what percentage of the force is trained by tier--that 
is fairly straightforward.
    The more meaningful is the subjective measures that are 
coming up at the same time, both through the service change and 
through the combatant commanders, which is--the importance of 
leadership in this cannot be overstated. It is the single most 
important thing. And feedback from the leadership on the 
progress of the training, the quality of the training, the 
questions that come up in that training or any barriers that 
may come up are the critical part.
    Mr. Wilson. And my second question would be, following 
training, how will you know the troops in the field believe 
they are prepared to cope with the complications that will 
follow? Will you conduct surveys to validate the effectiveness 
of the training?
    Secretary Stanley. Well, at this time, Mr. Chairman, there 
is no plan for surveys.
    But, again, as Admiral Gortney said, the leadership piece 
is significant here. And the relationship now with not only the 
President but also we are talking about the Chairman of the 
Joint Chiefs of Staff and the Secretary of Defense, the 
meetings they have been having in terms of the implementation 
process that we have been going through, meeting with service 
chiefs, meeting with service secretaries, the reports we have 
been getting so far, and the relationship that we have with the 
field, the leadership piece, that subjective part, is probably 
the most significant when it comes to keeping your fingers on 
the pulse of what is happening and whether or not your troops 
understand and, you know, understand what the rules are.
    Mr. Wilson. And I would hope--I know in my 31-year service 
in the Army Guard and Reserves that we did annual surveys on 
different issues in general. And so I would hope that maybe 
there could be a survey question.
    A final question for me is, in regard to religious rights 
and chaplains, I would like to know from both of you, are there 
going to be detailed guidelines provided to chaplains to ensure 
they know when and where they can express their views? Where is 
the line drawn--a private counseling session, a hallway 
conversation, off-duty conversations?
    Secretary Stanley. Mr. Chairman, we are reviewing the 
guidelines now, so the specificity of the guidelines is 
actually under review. But, for the most part, most of what is 
happening now with the chaplains' responsibility to serve all 
who are in uniform, that has remained unchanged. The chaplain 
still has a responsibility to serve, and we have seen no 
indication that that will change.
    Mr. Wilson. And I am very grateful, the chaplains school, 
the joint chaplains school is located at Fort Jackson, South 
Carolina. And my son who served in Iraq, his roommate was the 
chaplain. So I really do appreciate chaplains, and I really 
don't want them, though, to be constrained in their ability to 
serve.
    And, at this time, I conclude.
    Ms. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    Dr. Stanley and Admiral Gortney, what issues or concerns 
have been raised during these training events? Could you take 
us through that? Have there been any issues with respect to the 
potential impact the proposed change will have on military 
readiness, military effectiveness, and unit cohesion, also 
recruiting and retention? Are there some issues that we should 
be aware of that have been raised and any concerns or issues 
that you have around them?
    Secretary Stanley. Well, Congresswoman Davis, so far, it 
has been pretty much--it has been very good. The training has 
gone very well. By nature, I sort of say, okay, it has gone 
very well, but I am still looking. I am certain that the 
commanders out there and everyone involved in the process is 
still looking. But it actually has gone extremely well so far. 
No implications on recruiting because it has actually been 
pretty early.
    We have, to date now, trained almost a little over 200,000 
of the force has actually gone through training, about 9 
percent.
    And I will ask my colleague here.
    Admiral Gortney. Yes, ma'am. Once again, all of the 
subjective assessments from the commanders have been that the 
training has gone well. None of the issues that have come up 
were not things that we were not already aware of as a result 
of the survey that was out there that we were then able to 
tailor the training to, to answer.
    So, thus far, no surprises, and we are pretty pleased where 
we are. And, once again, 9 percent of the force has been 
trained.
    Mrs. Davis. One of the issues that I have heard is 
something that we had talked about before, and that is that 
there are some generational differences in the response of the 
troops. And I wonder if you could comment on that briefly.
    And then I wanted to ask you just about the deadlines that 
the services are trying to meet.
    Secretary Stanley. Well, as far as generational--now, I am 
obviously familiar with the Comprehensive Review Working Group. 
From the repeal implementation process that the Secretary has 
asked me to do, that has not come up as an issue. We are 
dealing with the Active Force. We haven't done any more 
surveys, so we are not bringing in more data.
    Bottom line is that the training has been very effective, 
and we have been very pleased with what we have seen. But our 
antenna are up because this is not a rushed process, and we 
want to be deliberate and purposeful in doing this.
    I will ask my colleague.
    Admiral Gortney. Yes, ma'am. The results of the survey told 
us key indicators that we need to be aware of. One of them, in 
the combat arms--or, told us that, with the combat arms parts 
of the forces for the different services, that we are going to 
have to pay particular attention to them. And it gives the 
service chiefs the opportunity to apply the attention that is 
required there. And, once again, we don't anticipate any show-
stoppers there.
    Mrs. Davis. The Army, as I understand it, is going to be 
the last to conclude their training. And I wonder what timeline 
you would expect, then. If they do meet their deadline, what is 
the timeline that you would expect that the President, the 
Secretary, and the Joint Chief, that they could actually send 
that certification to Congress? Have you looked at that and 
what we might be looking at here in terms of a timeline?
    Admiral Gortney. Yes, ma'am. As the Secretary said, we 
anticipated about mid-summer, in order to meet the completion 
of the preponderance of the force to be trained and the 
regulations to be in there and to get the recommendations from 
the service secretaries and the service chiefs to the Chairman.
    That deadline is really a function of the Army in order to 
get--just because of the size of the force and to include the 
Reserve and the National Guard in that. That is really the long 
goal there. And it is just a function of numbers that have to 
be trained.
    Mrs. Davis. When we talk about the President and the 
Secretary and the Joint Chiefs sending their certification, 
there is an assumption there that the Chairman of the Joint 
Chiefs is consulting with the service chiefs, as well, and that 
their input would certainly be very much part of that decision-
making process that you would go through?
    Admiral Gortney. Absolutely, ma'am. The service chiefs and 
the Chairman meet twice a week. It is a scheduled, what we 
call, ``the tank.'' And about once a month, one of the subjects 
is a review of how the training is going to date. And he will 
not provide his advice to the Secretary until he has heard from 
the service chiefs.
    Secretary Stanley. And I just want to add that Secretary 
Gates has met at least twice now with the service chiefs, 
service secretaries, and is in consultation, also, with the 
combatant commanders, also, to get their input.
    Mrs. Davis. Thank you.
    Thank you, Mr. Chairman.
    Mr. Wilson. Thank you, Ms. Davis.
    And, based on the time of arrival prior to the vote, we 
will now proceed with Congressman Mike Coffman of Colorado.
    Mr. Coffman. Thank you, Mr. Chairman.
    First of all, I think that I had requested out of the 
survey a by-rank, by-MOS [military occupation specialty] 
breakdown. And I think that that was not provided until about a 
month after the vote. And I want to say for the record, I think 
that was intentional, because the numbers for those combat arms 
personnel, particularly in leadership, were certainly more 
opposed in greater numbers than non-ground combat arms. And so 
I want to state that for the record, and my disappointment with 
the forthrightness of this process, not simply with Members of 
Congress but with the American people.
    And, with that said, let me ask a question of Secretary 
Stanley. One of the policy implications of repealing Don't Ask, 
Don't Tell is considering reinstatement of service members who 
were discharged under the policy.
    Given the increasingly competitive environment of joining 
our military, our All-Volunteer Force, how will the Department 
institute a fair process regarding service members who were 
discharged under the Don't Ask, Don't Tell policy versus other 
former service members honorably discharged who are reapplying 
for Active Duty?
    Secretary Stanley. Yes, thank you for your question, 
Congressman.
    The process now, as we see it, will be that, as members are 
coming back in, they can apply to come back in just as anyone 
else in America would come back in the services. There is no 
special dispensation, but they will come back in. And we will 
be looking at them based upon the needs of the services, MOS 
qualifications, their physical qualifications, where they are 
at that particular time, and all of that still based on the 
needs of the service. But they will be looked at and have an 
opportunity to come back.
    Mr. Coffman. Thank you.
    Let me just conclude with this. As someone who served in 
both Army and Marine Corps infantry, that I virtually have no 
confidence in your process. I think that this survey, this 
study was the conclusion looking for a study. And I think that 
this is a political decision, obviously, made by the executive 
branch, and the military will follow it under whatever 
circumstances or ramifications it has to the combat 
effectiveness of our forces.
    With that, Mr. Chairman, I yield back.
    Mr. Wilson. Thank you, Mr. Coffman.
    And we proceed to Congressman Dave Loebsack of Iowa.
    Mr. Loebsack. Thank you, Mr. Chair.
    Thanks to both of you for being here today and for your 
service.
    I have a question that sort of goes back to before the 
actual training and education. With whom did you consult or did 
the services consult as to what the education programs or the 
training program ought to look like? How did you come up with 
these in the first place?
    Secretary Stanley. Well, I will address part of this. I 
mean, I know that the services now worked with each of the 
services. I don't know if they had to even go out; we have 
excellent educational capacities within. I am not aware of any 
external sources. But we have, as you know, academicians in the 
military. We looked at our training edifices, in terms of how 
they are set up. And each service cooperated and worked 
together. We have the Defense Equal Opportunity Management 
Institute, which is significantly steeped in terms of 
education, research, to develop the training packages as we 
move forth.
    Mr. Loebsack. Methodology is one thing, but substance is 
another thing. Can you sort of explain the difference in that 
sense? I mean, it is one thing to have training programs as 
such and methodology employed. But we are talking about a 
specific area of expertise that will be needed in this case, 
and that has to do with homosexuality and basically changing, 
perhaps, even the culture of the military.
    Secretary Stanley. Well, I think the substance--and let me 
add one more category.
    Mr. Loebsack. All right.
    Secretary Stanley. And that is, we also consulted with and 
talked to the other countries, other nations----
    Mr. Loebsack. Ah.
    Secretary Stanley [continuing]. Some who have already gone 
through this.
    Mr. Loebsack. Okay.
    Secretary Stanley. And so when you add that in there, 
people who have gone through this already, that gets into 
substance as well as methodology.
    Mr. Loebsack. All right.
    Did you want to add anything, Admiral?
    Admiral Gortney. No, sir.
    Mr. Loebsack. Okay.
    I appreciate that.
    I do have a question also, having been to Iraq three times 
and Afghanistan six times now in the 4-plus years that I have 
been in Congress, I do have a question as to how you are 
ensuring that the training of our combat troops does not 
disrupt their carrying out their mission.
    Admiral Gortney. The service chiefs really looked hard at 
that, and that is why they started training the force as early 
as they possibly could, so they could catch the force that will 
be deploying to Iraq and Afghanistan before they get there, and 
then leave it to the commanders on the field, for those that 
are there, to determine whether or not it is best to do it then 
or when they return from their deployment.
    It looks, at this time, as if the service chiefs feel that 
the training can be done, but they are leaving it up to the 
commanders in the field to make that ultimate determination, 
then would get it on their return.
    Mr. Loebsack. And, so far, we have not seen any disruption 
in terms of their ability to carry out their mission; is that 
correct?
    Admiral Gortney. None whatsoever, sir.
    Mr. Loebsack. No examples, even anecdotal?
    Admiral Gortney. No, sir.
    Mr. Loebsack. Okay. Well, that is good to hear. I 
appreciate that.
    What about retention and recruitment as a result of the 
change in this policy? How are we doing on that front, 
recruitment and then retention?
    Secretary Stanley. Congressman, no data points yet; too 
early to tell. I mean, that is one of those things where the 
environment right now, particularly with the--I mean, our 
enlistment rate, re-enlistment, everything is good. But I am 
not putting a lot in that right now. It is just early.
    Mr. Loebsack. Right.
    Secretary Stanley. As we go through this, we are watching 
that very closely.
    Mr. Loebsack. What are the expectations? We must have some 
expectations or thoughts about whether this will have any 
effect or not.
    Secretary Stanley. The expectations----
    Mr. Loebsack. On recruitment, in particular.
    Secretary Stanley. Sorry. But the expectations would be 
that there will be no impact. But, by nature, I just continue 
to look, because readiness is in the portfolio, and we have to 
take that very seriously.
    Mr. Loebsack. Right. Well, I appreciate waiting until we 
have data. As a former social scientist myself, I think we have 
to be evidence-based in this process, all the way through the 
process from beginning to the end.
    Did you want to say anything on that?
    Admiral Gortney. Yes, sir. And I think, as far as metrics, 
retention and recruitment are going to be the last metrics we 
are going to get. It is going to take time to get that 
information in.
    However, when we surveyed the services from around the 
world that have implemented this, as far as recruitment, they 
did not see an impact to that. So we will have to wait and see 
from here.
    Mr. Loebsack. All right. Thanks to both of you.
    And I yield back the balance of my time. Thank you, Mr. 
Chair.
    Mr. Wilson. Thank you, Mr. Loebsack.
    At this time, we proceed to Congressman Allen West of 
Florida.
    Mr. West. Thank you, Mr. Chairman, also Madam Ranking 
Member.
    Secretary Major General Stanley and also Vice Admiral 
Gortney, thank you for being here today.
    Part of me is going to speak from the experience that I 
had, 22 years as a commander of the company and also at the 
battalion level.
    And one of the things I look at is, the mission of the 
United States military is to fight and win the wars of our 
Nation. And I think this is a very serious situation in which 
we find ourselves, in that we are now looking at a behavior and 
we are starting to try to conform the military to a behavior. 
And I remember, coming into the military, we took behaviors and 
we formed it to the military, we formed that cohesion. And 
using a term that they have over in the Middle East, I just am 
very wary of the fact that this could be the camel getting his 
nose under the tent, and then what comes from there.
    So, with that being said, my question is this--and I go 
back to the episode with Major Nidal Hasan, where we had 
commanders up here at Walter Reed that saw some very disturbing 
behaviors there with Major Nidal Hasan, but, for whatever 
reason--I think that one of the main reasons is the retribution 
of an atmosphere of political correctness--they did not speak 
up about that. And, of course, we know what happened when he 
was transferred down to Fort Hood, Texas.
    How do you let us in this committee or give us the comfort 
in knowing that commanders and leaders that are out there and 
see failures in the implementation of this program are free to 
speak up and not have to worry about an environment, a 
political environment, where they are told to shut up and make 
this happen or else?
    Secretary Stanley. Well, Congressman West, thank you for 
the question.
    I think it starts with the President of the United States, 
goes to the Secretary of Defense and the Chairman, in terms of 
selecting the very best leaders. I think that nothing can be 
said even stronger about having the best people. This is about 
leadership, as Admiral Gortney said.
    We all know that this world we live in doesn't have 
perfection, but we know we can do better. And as a person who 
is charged with readiness, I am not saying I own that but I 
will tell you that I have a role in that, in ensuring that we 
work toward having our leadership to ensure that what you have 
alluded to will not happen.
    I will yield.
    Admiral Gortney. Yes, sir. The importance of leadership in 
this cannot be overstated. It is just like the importance of 
leadership in all of combat readiness.
    And as I read the results of the survey, the thing that 
jumped out at me was once again the importance of leadership, 
and that if I would be looking for where there might be 
challenges with this, it would be in commands that already have 
indicators of poor leadership.
    And you are aware of what those indicators are. And it is 
tied to combat readiness, it is tied to discipline, and it is 
tied to morale. And so those commands that don't have that, I 
know the service chiefs are looking really hard at, because 
they know in those individual commands they may have 
challenges.
    It comes back to leadership. And we all know that we don't 
have perfect leadership all the time, but we are looking as 
hard as we can to make sure that we do have it.
    Mr. West. Well, the leadership is a concern. And I can tell 
you that, having friends that are still wearing uniforms, that 
is their big concern.
    And I go back to the incident that happened back at Fort 
Campbell, Kentucky, in the 101st Airborne Division, when we had 
the young soldier that, unfortunately and tragically, was 
beaten to death in his unit, in his platoon. But what ended up 
happening from there was a series of the chain of command, from 
that level all the way up to a division commander, was lost. 
And so, that is the thing that I want to make sure of, is that 
we do not go now on a witch hunt because of external social 
engineering, special interest groups that will affect the 
readiness of the United States of America.
    So, with that being said, I yield back the remainder of my 
time.
    Thank you, gentlemen.
    Mr. Wilson. Thank you, Colonel West.
    And we now have Congresswoman Niki Tsongas from 
Massachusetts.
    Ms. Tsongas. Thank you both for your testimony here today 
and, Dr. Stanley, for your co-chairmanship of the Don't Ask, 
Don't Tell Repeal Implementation Team. It is not a simple 
process, and many questions.
    But just to reiterate why we moved to repeal Don't Ask, 
Don't Tell, since 1993 more than 14,000 gay service members 
have been discharged under the discriminatory Don't Ask, Don't 
Tell policy. And, of these discharges, nearly 1,000 were 
specialists with vital mission-critical skills--Arab linguists, 
for example. We hear those figures over and over again. I have 
always believed that this policy actually threatens the 
readiness of our military, by discharging hundreds of military 
personnel critical to our national security and shutting the 
door to thousands more.
    And it is also unconscionable to maintain a policy when at 
least 24 other countries, including allies such as Great 
Britain, Australia, Canada, and Israel, already allow open 
service by lesbian and gay service members. And that is why I 
have always strongly supported repeal of this policy.
    And I concur wholeheartedly with Admiral Mullen's 
distinguished leadership about this issue; his assessment when 
he stated in his testimony before the Armed Services Committee 
last year that this policy, quote, ``forces young men and women 
to lie about who they are in order to defend their fellow 
citizens,'' unquote, undermining a basic tenet of military 
service, which is to be honest.
    And so I was proud to vote for the repeal of Don't Ask, 
Don't Tell. And I am glad you are both here today to give us a 
sense of how much progress has been made and when final repeal 
may occur. I am hopeful that certification will occur by the 
second quarter of this year.
    So I am curious--you are testifying, basically, that on 
both objective and subjective measurements that things are 
proceeding fairly smoothly. So do you have some sense of when 
that certification might finally occur, given that you have yet 
to detect or determine that there are real obstacles to it?
    And, also, how has the Department complied with Secretary 
Gates' instruction that he announced on January 6 of this year 
to accelerate the preparation of efforts to move ahead?
    Secretary Stanley. Thank you, Congresswoman Tsongas.
    We have embraced, obviously, our leadership--Secretary 
Gates was very specific. We want to do this deliberately and 
purposefully; a process that we don't want to rush because we 
want to make sure that it is done right. At the same time, we 
don't want to take forever to do it. So we have been moving 
with deliberate speed to get it done. And just the sheer size 
in the numbers of people, what we are talking about, has 
actually shaped the process.
    We are looking at mid-summer to go toward certification. 
But even when I say that, if there is something that comes out 
that we didn't anticipate, which is what we are looking for, 
particularly with readiness implications, we would be prepared 
to even either slip it or whatever from that. But mid-summer is 
what we are looking at realistically, with no problems so far.
    I will ask my counterpart.
    Admiral Gortney. I completely agree with the doctor, mid-
summer. All of the services wanted to move out in a deliberate 
process. No one was trying to drag their feet in this. It is 
really the magnitude of the challenge that is out there and 
making sure that, as we get our arms around the magnitude of 
the challenge, we don't miss anything.
    And so we are grateful for the deliberate process that has 
been laid out for it. And we think mid-summer for the 
recommendation, followed by 60 days after that repeal, is 
achievable.
    Ms. Tsongas. As you have looked at other countries, which 
you suggested you had, have you seen sort of markers, things 
that you know might emerge that you can anticipate and head 
off? You know, what are the lessons learned from those other 
countries that have moved ahead on this and done so with great 
success?
    Secretary Stanley. Well, thank you for the question, 
Congresswoman Tsongas.
    The other countries didn't have the kind of problems that 
we anticipate, but we are the United States, and we are a 
little different in terms of our culture. I mean, we are 
different. And so, as a result, we didn't take the nonevent or 
uneventful things that happened in other countries as being 
indicative of what may happen here, which is why our antennae 
are still up as we move forward deliberatively and purposefully 
in the process.
    Ms. Tsongas. Thank you both.
    Mr. Wilson. Thank you, Ms. Tsongas.
    We next proceed to Congresswoman Vicky Hartzler of 
Missouri.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today.
    There has some discussion that certain members of the 
military were let go. But surveys that I saw have shown that 
possibly up to 10 percent of the military that are currently in 
the force possibly may leave as a result of this.
    So how will you know that this repeal won't harm 
recruitment or retention? What indicators are you setting up? 
What surveying process is going to be in place? What follow-up 
reports are going to be generated? And will Congress have an 
opportunity to see those? And what is anticipated? How will you 
gather that information?
    Secretary Stanley. Well, thank you, Congresswoman Hartzler.
    First of all, thank you for the question because I wanted 
to come back to something that was asked earlier. We do climate 
surveys, by the way, and this is a commander's tool that is 
available to them, to do assessments, you know, routinely. That 
is a constant.
    Also, it is difficult to forecast. We haven't seen any 
indication that that would happen. But there is an obligation 
now that each service member takes; they have a contract. And 
just because you want to get out, you don't get out. Now, it 
doesn't mean that you--the commander, though, on the ground 
makes the call, according to good order and discipline and what 
is most effective for the unit. But the bottom line is, it is 
not an automatic.
    But the readiness implications are significant if everyone 
wanted to get out. We don't have the data point that you have 
to say that--whatever the percentage is that wants to get out.
    And I will yield at this time.
    Admiral Gortney. Yes, ma'am. One of the things from the 
other services from around the world that implemented it, they 
had a similar perception, that more people would get out at the 
end of--in reality, it didn't happen. That doesn't mean that 
that can't happen in this particular case.
    Retention is a function of personal beliefs. It is a 
function of sense of purpose. And it has a large degree with 
the economy on the outside.
    Mrs. Hartzler. Uh-huh.
    Admiral Gortney. And so, separating retention statistics 
when we get down to it, when we are finally able to gather 
those, we are going to have to sift very carefully to find the 
true cause. And we survey--for every service member that gets 
out, we do survey for the reasons as to why they get out.
    Mrs. Hartzler. Okay. That was my question. So when they 
leave, they are going to be asked that question and have an 
opportunity to say.
    And then, so, is there a report--I am new. I wasn't here 
when this passed. So is there a, 1 year from now, the military 
shall report back to Congress on the implications and how many 
people--I mean, is there something like that in statute?
    Secretary Stanley. Yes, ma'am. In fact, before this very 
committee, we actually appear, not regarding just this issue, 
but the entire shaping of our military force, the force 
structure, the size, the numbers that get out, the numbers that 
stay in. And there are a whole range of reasons for that, as 
well as skill--and particularly skill sets, as we deal with 
readiness. So there is a lot of information that comes to the 
House as well as to the Senate.
    Mrs. Hartzler. Okay. So, no report per se that is in the 
works, but just--okay.
    Can you tell me how implementation of this new policy is 
going to improve the standards of military readiness, 
effectiveness, unit cohesion, recruiting, retention? How is it 
going to improve things by doing this?
    Secretary Stanley. Well, we don't--there are a lot of 
unknowns right now, in terms of improving readiness. We do know 
that, from an integrity standpoint, as already alluded, that we 
won't have members having to lie about who they are as they are 
serving.
    But having said that, the unknown right now is what we are 
going through in the implementation process. So, ideally, we 
will know more later on, but keeping the skill sets--there are 
people who have been discharged. We want to keep the right 
people in.
    If I took this away from the conversation of today, looking 
at balancing the force, looking at having the right people with 
the linguistic backgrounds, intelligence backgrounds, different 
things like that, that shaping, in itself, is significant, 
taking away this variable. And I know the purpose of this 
hearing is different, but that is where I am coming from.
    Mrs. Hartzler. Well, the mission of the military is to win 
wars and to protect and defend the land. And I am very 
concerned that, in a time of war in our country--we have men 
and women in harm's way--that we are making such a radical, 
major shift in our policy and, I believe, jeopardizing missions 
and putting people in harm's way. So I am very concerned.
    How do you think it will increase our mission of being able 
to win wars by doing this?
    Admiral Gortney. Ma'am, we are--it is the service chiefs', 
Chairman's best judgment that it is not going to impact our 
ability to fight and win our Nation's wars. And I happen to 
believe it, as well.
    I think we can go through this based on the analysis, the 
detailed analysis that led us up to this point, and the 
process, the procedures we are putting in place to train the 
force, and the feedback mechanisms that are in place to get 
back to the chain of command if we hear something otherwise, 
are all there, that we will be able to then apply good 
leadership to make sure that that doesn't happen.
    Mrs. Hartzler. Okay.
    Thank you, Mr. Chairman.
    Mr. Wilson. Thank you very much, Ms. Hartzler.
    And we proceed to Congresswoman Chellie Pingree of Maine.
    Ms. Pingree. Thank you very much, Mr. Chair.
    Secretary Stanley and Vice Admiral Gortney, thank you very 
much for being here today, for your service to this country, 
and for taking on a challenging transition. I appreciate all 
that you have had to say today.
    I know we have sort of said this isn't about reconsidering 
whether or not we should have done this, but I want to 
reiterate some of the things that my colleagues have said and 
Representative Tsongas said very well, that this is a good 
policy, this was a change that we needed to act on. I was very 
proud to vote for this and to support it. And for all of the 
reasons that have already been discussed, whether it is about 
unit cohesion or the cost to our country--and, in the end, the 
fact is, Don't Ask, Don't Tell was a morally reprehensible 
policy. And I just think that it violated the fundamental value 
of fairness and equal treatment that we cherish in this 
country. And I am just so pleased that we are here to talk 
about the end of it and the transition out of it, which I think 
is great.
    I also want to say, I know some people have talked about 
their concerns about whether or not the surveys were accurate 
or how this is going to affect the actual troops in the field. 
And I am pleased to hear that you have said there has been very 
little evidence of that. And I want to we remind everyone that 
those surveys show that 90 percent of our military personnel 
who said that they had served with a gay or lesbian person had 
no reaction to it and said it was perfectly fine in their unit. 
And I think that is an important thing to remember.
    I think that is very important when we think about how 
quickly we implement this policy. You know, we can drag 
ourselves down in kind of the, you know, political window of, 
``Well, it is not quite done yet, and you haven't finished the 
training.'' So I just want to push a little bit on the 
implementation. I am pleased to hear that you are moving 
forward, that you have 9 percent accomplished. But I just want 
to ask a little bit about, can we move any faster?
    Because I do believe that, once it is fully implemented, it 
will be a conversation we won't have any more. And our troops 
will not have to think about it; they will be working. We won't 
debate it politically, and our country will continue to move 
forward in a way that we need to do in a time of a lot of 
conflict.
    So is there a way to move faster or hurry up on the 
process?
    Secretary Stanley. I will just make an opening comment, 
that the conditions on the ground and the commanders are 
actually driving this. I mean, whatever the Secretary--
Secretary Gates wants it to be fast, but, at the same time, we 
are listening to the services.
    And I will defer to my colleague.
    Admiral Gortney. Yes, ma'am. I think the pace that we are 
going on is appropriate, entirely appropriate.
    Once again, surveys are only so accurate. And so, it goes 
back to, as we do the training in a deliberate manner, we train 
the experts first, we train the leadership who are the key part 
of this, then train the force, and that we have the ability to, 
as the doctor says, antennas up, pick up if we have something 
wrong here that we need to go back and address. And we are 
going to have to collect that information, we are going to have 
to assess and come up with a way to address it head-on. And the 
only way to do that is in a deliberate process. So, any faster, 
we might miss something.
    And so, I think we are on the right path. I think mid-
summer is achievable and will allow us to pick up on anything 
if we are picking up any of the signals that we are so 
carefully looking for.
    Ms. Pingree. There is a 60-day statutory waiting period, 
right? So I wonder, can any of the process that you are working 
on now happen during that period?
    Secretary Stanley. Well, actually, during the 60-day 
process, we actually have things even planned there.
    Ms. Pingree. Okay.
    Secretary Stanley. As the certification takes place, there 
is still a little bit more training of the force going on then, 
because you never really get to 100 percent, and that is the 
reality----
    Ms. Pingree. Right.
    Secretary Stanley [continuing]. Because you always have 
people coming in, there are people leaving, there are people 
sick, there are people in transportation. There are just lots 
of other things going on. So that will be--doing some of that, 
people going into combat, coming out of combat, that kind of 
circumstances, so that is also in that.
    Ms. Pingree. Great.
    Well, one other point. I mean, I am pleased to hear that 
you say, in the time period you have gone through, it has gone 
smoothly, people are reacting well to it. As I understand, many 
of the things that people bring up as concerns, frankly, just 
don't happen much in the military. We haven't had incidents, we 
haven't had a lot of things that people have been concerned 
about.
    And there are already a lot of policies in place. You know, 
people talk about, what if I need to change my roommate? Well, 
you can already do that, whether it is a homosexual or 
heterosexual roommate. Chaplains, as the chair appropriately 
asked, can already make a decision that they won't meet with a 
certain person and have it be with someone else or if they have 
some, you know, issues that they have to deal with.
    Can you talk a little more about that? I mean, I appreciate 
the fact that the military already has a lot of policies in 
place and they are there for people today.
    Admiral Gortney. That is correct, ma'am. Really, it is 
treating people with dignity and respect. We are not creating a 
special class within the military. And all of the issues that 
you brought up are really just leadership issues that we 
confront every single day, regardless of your preference. So 
most of the questions that do come up are what is not changing.
    Ms. Pingree. Great. Well, that is my time. Thank you very 
much. I appreciate your work on this.
    Mr. Wilson. Thank you, Ms. Pingree.
    We now proceed to Congressman Austin Scott of Georgia.
    Mr. Scott. Thank you, Mr. Chairman.
    Admiral, would you agree with me that military service in 
this country is a privilege, not a right?
    Admiral Gortney. Absolutely.
    Mr. Scott. And we have an All-Volunteer Force, at this 
stage. Nobody is forced to join our military.
    Admiral Gortney. That is correct.
    Mr. Scott. And this policy change that was passed, did it 
pass as a stand-alone piece of legislation, or was it tied to 
the military appropriations act?
    Admiral Gortney. That I am not familiar with, sir.
    Mr. Scott. Secretary Stanley.
    Secretary Stanley. I am going to take that for the record. 
I think I know that for the record, but I don't want to say 
something for the record that is not correct.
    [The information referred to can be found in the Appendix 
on page 67.]
    Mr. Scott. Well, would you tell me what you think the 
answer is?
    Secretary Stanley. Okay. I was under the impression that 
this was stand-alone. And I saw nothing to indicate anything 
other than that.
    Mr. Scott. Okay.
    Secretary Stanley. But I just wanted to make sure there 
wasn't something else there. That is all.
    Mr. Scott. Okay. I would like to know the facts about that.
    Next question: How much money that could have been spent 
equipping the warfighters has been spent on the implementation 
of this?
    Secretary Stanley. So far, the calculation for the training 
materials is about $10,000. The other areas, there has actually 
been no calculation yet. The active services are working now to 
compute what the timing has been for, you know, the time taken 
out for training; there are transportation costs. The services 
are working on that. We have that.
    Mr. Scott. Secretary Stanley, if something was done at the 
DOD for $10,000, I would like to know what it was. I haven't 
seen anything come out of there with a price tag that low. But 
I would like to know the price tag for this and how much has 
been spent on this implementation.
    And I hope that, as we move forward, that we are able to 
undo some of these things. And I will tell you, in talking to 
the military personnel in my district, you have a lot of men 
and women who we have spent a lot of money training--I can tell 
you, the last one that I spoke with, we have spent hundreds of 
thousands of dollars training that gentleman on how to disarm 
IEDs [improvised explosive device]. He will not re-enlist, nor 
will his brother, who has been trained the same way. They 
simply will not re-enlist. And you are going to lose and this 
country is going to lose a lot of very, very valuable members 
of our military because of this social policy.
    Mr. Chairman, I yield my time back.
    Mr. Wilson. Thank you very much, Mr. Scott.
    And we will proceed with the second round.
    I continue to be very concerned about the First Amendment 
rights of chaplains. I have heard from chaplains; they are 
concerned that the repeal implementation training could have a 
chilling effect on their speech. Chaplains are afraid to 
express their true beliefs because they could be penalized.
    With that, what procedures will be available to afford 
chaplains the opportunity to report pressures placed on them to 
temper comments and chill their freedom of religious speech? 
What procedures will be in place to protect such chaplains from 
punitive career personnel actions from supervisors and others 
who do not share their views?
    Secretary Stanley. Well, Mr. Chairman, first of all, the 
chaplains still have their First Amendment rights. Chaplains 
still serve a pretty diverse population in the military. Those 
same rights that existed before exist now.
    But the policy review we are going through is actually 
being conducted to address the potential that there is 
something that we have overlooked. And we haven't finished the 
policy review yet.
    But protecting those First Amendment rights--and, also, 
when we look at this particular equation or this question, the 
religious endorsers haven't withdrawn anyone and the chaplains 
are still engaged. I think we are there addressing what may be 
potential issues, but we don't have issues yet.
    And I will ask the----
    Admiral Gortney. We are blessed to have great chaplains in 
the service. And there are, I am certain, moral dilemmas for 
all the chaplains on many issues out there. I think the policy 
review that the doctors bring will help bring those to light. 
And we are not asking anybody to change their beliefs, we are 
not asking anybody to change their feelings, just treat 
everybody in the service with the same dignity and respect that 
we, ourselves, would like to be treated.
    Mr. Wilson. But if somebody feels like they are being 
religiously oppressed, their First Amendment rights, is there a 
process or procedure where they can express concern without 
retaliation?
    Admiral Gortney. Absolutely, sir. That is why we have a 
chain of command. And, you know, I have never worked in a 
perfect chain of command, never had one, didn't have one under 
me. But you do have a chain of command, and you do have 
opportunities to bypass that chain of command if you think you 
are being wronged. And all those processes and procedures are 
still in place.
    Secretary Stanley. Mr. Chairman, it is so much, again, 
about the leadership equation that we talked about earlier, 
dealing with commanders, providing that kind of environment 
where people can talk and have an opportunity to go up the 
chain of command as well as down the chain of command. But 
leadership is really the most important part of what we are 
talking about right now.
    Mr. Wilson. Will it be monitored at all, complaints by 
chaplains, as to if they feel that they have been chilled in 
their ability to serve?
    Admiral Gortney. Well, sir, the policy is still in place. 
But I will tell you that, as a commander, I am very sensitive 
since we know that some chaplains may have concerns about this. 
The commanders in the fields are going to know those chaplains 
and are going to know whether or not they are going to have a 
concern with it. And then, if that chaplain can't come to grips 
with dealing with this service member's particular challenges 
because of the service member's beliefs, then we will get a 
chaplain that will be able to meet his or her needs.
    Secretary Stanley. Mr. Chairman, although we aren't there 
yet with repeal, it is moving in that direction. After 
certification, if we get into the sustainment phase, my 
recommendation to Secretary Gates would be that these kinds of 
things would be the things we would be looking for, to ensure 
that we have a policy that is implemented fairly, equitably, 
and purposefully.
    Mr. Wilson. And I am particularly hopeful that, as you 
proceed, that there will be regulations and guidelines that 
could be real-world understood by chaplains so they don't feel 
that, in fact, they have truly lost their First Amendment 
rights. And so I really will be monitoring this and would like 
to see what is done.
    Another concern I have is that we will be providing troops 
in countries where the culture and laws provide that homosexual 
acts are culturally not approved or even illegal. Are our 
troops going to be briefed on this prior to going? And what 
kind of training will they receive?
    Admiral Gortney. Yes, sir. Prior to any service member's 
deployment overseas, we do cultural awareness training for the 
specific country or region that they are going to. And this 
will be included into that training.
    Mr. Wilson. And I thank you very much.
    And we will proceed to Ms. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    I know that the issue of cost has been brought up, and I 
know, during the debate, there was discussion about the cost to 
the country, the cost to taxpayers, for having to essentially 
dismiss, kick out members who were serving in the armed 
services.
    Dr. Stanley, do you happen to have the price tag on that?
    Secretary Stanley. No, Congresswoman Davis, I don't have 
the price tag on the numbers--you mean the numbers who were 
discharged, like pilots, special MOSs, things like that?
    Mrs. Davis. The numbers of service members who were 
discharged as a result of their homosexuality, who were 
essentially--yeah, who were dismissed.
    I mean, as I recall, there was a price tag of about $300 
million to dismiss those service members. And then you had the 
cost of actually recruiting and filling those skill sets in the 
services, as well.
    I guess, if you could just come back to the committee, 
perhaps, as we have opportunities down the line, to have those 
numbers, that would be very helpful.
    Secretary Stanley. Absolutely.
    Mrs. Davis. I know that they were out there. And I think 
the first 13 years of the policy may be in the neighborhood of 
about $300 million.
    Secretary Stanley. Absolutely. I would like to take that 
for the record and get back to you.
    [The information referred to can be found in the Appendix 
on page 67.]
    Mrs. Davis. Okay, great. Thank you.
    I also wanted to ask about status of the several court 
cases that are seeking to end Don't Ask, Don't Tell. What would 
be any difference in the process if the decision was made by 
the courts regarding those cases?
    Secretary Stanley. There are several court cases right now, 
and I know they are with the Department of Justice as they move 
those through the process, the Ninth Circuit, I believe. And I 
am not sure what the other circuit is. But the bottom line is, 
I know that the Department of Justice is working those; they 
continue to move forward. I don't anticipate any other changes, 
in terms of what we are doing, in those court cases right now.
    Mrs. Davis. Okay. Thank you.
    And, if I could, Mr. Chairman, I happen to have just a 
report from the Daily Transcript in San Diego. There was a 
meeting there where Major General Ronald Bailey, who heads the 
Marine recruiting depot, was speaking to a group of service 
members and other individuals in San Diego and just commenting 
on the fact that has been said here before: When asked about 
repealing Don't Ask, Don't Tell, he said he was very much in 
favor of it. ``It is about leadership, and my leadership 
philosophy is to treat everyone with respect and dignity. There 
is no separation. All I ask is that you be a marine.''
    So if I could put that in the record, sir. Thank you.
    [The information referred to can be found in the Appendix 
on page 45.]
    Mr. Wilson. Without objection.
    Mrs. Davis. And I will yield back my time. Thank you.
    Mr. Wilson. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    The former Commandant of the Marine Corps raised questions, 
General Conway, about billeting his marines. And I think the 
statement was, he would need extra funding, that he did not 
want to mix heterosexual marines with homosexual marines. And I 
think that--and I suspect that his same rationale was why he 
doesn't insist on having men billeted directly with women, to 
avoid not simply because of cultural issues but also to avoid 
unwanted sexual contact.
    Have you all--when I was a soldier and a marine, I can 
remember sleeping in those squad bays. I think they have broken 
a lot of those up now. I think they still using them in a 
training environment, but I think after that they have gone to 
these, I think, two-men or two-women rooms.
    Has that issue been discussed? And how will you deal with 
that?
    Secretary Stanley. Yes, Congressman Coffman, the issue has 
been discussed. And I am going to yield to my colleague here, 
but I would just say that, as we approach that, that sexual 
orientation is a private, personal matter. We have not been 
putting in--the issue of separate berthing is not something 
that we are not going to be separating because of sexual 
orientation.
    And I am going to ask my colleague to address that in more 
detail.
    Admiral Gortney. Leadership has had billeting challenges 
between personalities as long as there has been leadership and 
personalities in commands. And it is going to be up to 
leadership to handle those on a case-by-case basis, as they 
have for centuries. And we don't anticipate it to be a problem.
    Mr. Coffman. Thank you.
    And, with that, because we are repealing Don't Ask, Don't 
Tell, so, obviously, now we are saying that the behavior is 
acceptable, sexual orientation in any form certainly is 
acceptable, then why don't you simply remove the precautions? 
Why don't you simply change, then, that, irrespective of not 
simply sexual orientation but gender, that people be housed 
together? If you are going to go down that road, why don't you 
completely go down that road?
    Secretary Stanley. We are dealing specifically with sexual 
orientation, which is very private, very personal. We are 
serving with service men and women every day and, in many 
cases, don't even know where they are, where they orient 
themselves, unless they actually say something.
    And so, what we have said and where we are today is that 
orientation, being private and personal, is a leadership issue 
that commanders can deal with. And commanders have the 
authority today to actually put people in separate rooms or 
have separate billeting if it is best for the command, unit 
climate, morale, unit cohesion, as you move forward. But that 
is a commander's call. The commander can do that.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    Mr. Wilson. Thank you, Mr. Coffman.
    We now proceed to Ms. Tsongas.
    Ms. Tsongas. You all have talked so much the issue of 
leadership and the role of the commander, and we see that come 
up in many different contexts. And I am just curious if you 
could talk about the specifics of the kind of training that are 
now going to commanders around the repeal of Don't Ask, Don't 
Tell. You know, do you walk them through various scenarios? 
What is the process for, sort of, implementing this repeal with 
the commander?
    Admiral Gortney. Very good question, ma'am.
    What the services wanted to make sure is that they didn't 
relearn lessons learned from previous training evolutions. And 
so the training is--a lot of effort went into the training, 
into what was the training content itself. It is a mixture of a 
video that describes process, procedures, policy. And then it 
breaks, and then it is a give-and-take, an exchange by one of 
the mentors of the training, to pull out the key training 
aspects from what they had just witnessed. And in there, they 
also go into vignettes for whatever particular part of the 
policy or the procedure that was discussed in that video. Once 
that is out there, then they move on to the next part of the 
training.
    I went through it about 3 weeks ago, and I was very 
impressed with the quality of the content and the manner in 
which it was presented and the ability to draw out conversation 
with the training audience. It was very good.
    Ms. Tsongas. Do you envision, as we get into the sort of 
sustainment mode--I think that was the word, I think, Secretary 
Stanley, that you used--that this kind of training would 
continue to take place as new commanders sort of rise up 
through the chain and are tasked to deal with issues they may 
not have in a lesser spot so that it is an ongoing, ever-
present element of training of the commanders as they rise up?
    Secretary Stanley. Absolutely. I mean, the training, it 
is--I don't want to say phased, but we are doing the total 
force. At the same time that we are doing the entire force, we 
are also bringing in new recruits, so their training has to 
occur.
    So it will become part of not only the recruits--as 
recruits come in, as initial training, those that we might have 
missed, and then all the services will make it part of their 
general military training that covers many of the different 
issues that happen to be out there. So it will continue to be 
ongoing, just as we do anyway.
    Ms. Tsongas. And then, another question on the service 
academies. I happen to be on the board of visitors for the Air 
Force Academy. And I know that, in discussing repeal of Don't 
Ask, Don't Tell, the thinking was to wait to see how you all 
come forward, what the recommendations are. But how will this 
be implemented in the service academies?
    Admiral Gortney. It is no different. The service academies 
had their experts trained, have their leadership trained, and 
then training the force. And their force is the future 
leadership once they graduate there. So a lot of effort going 
into that.
    Ms. Tsongas. Thank you.
    I yield back.
    Mr. Wilson. Thank you very much.
    Mr. West.
    Mr. West. Thank you, Mr. Chairman, Madam Ranking Member.
    Back in the mid-'90s, under the Clinton administration, I 
remember being a Brigade S-3 (officer responsible for unit 
training and operations) at Fort Bragg, North Carolina, and the 
re-enlistment NCO [noncommissioned officer] came in and told me 
that there was a new mandate coming down from the 
administration. This administration sent down a--it was called 
the ``consideration of others training.'' And it was mandated 
monthly that we had to do it down to the platoon level. And 
then it became known by the soldiers as ``sensitivity 
training.'' And it was all of a matter of someone had said that 
the Army and certain parts of our military had too much of a 
warrior ethos.
    I hear what you are saying here now, that we are going to 
not just be a one-time training, that this now is going to be a 
sustained type of training. I understand in the educational 
processes, you know, being at TBS [the basic school], or being 
at OBC [officer basic course], or being at the service 
academies. But now we are really starting to talk about 
something that is going to continually be a monthly sustainment 
requirement in our units. Because it is one thing to train 
recruits when they come into the service, but now, you know, 
what happens, as you both know, having been commanders, you 
continue to have training within your units down to that 
platoon level all the way up to the collective level.
    So what guarantee are you going to give me that, once 
again, the camel has not gotten its nose under the tent and, 
the next thing you know, this is going to become a monthly 
training requirement throughout the United States military?
    Admiral Gortney. Sir, the training that I was alluding to 
that we didn't want to go back to was that sensitivity training 
that we lived through in the mid-'90s, which is why we put so 
much effort into this particular--the training venue and the 
models. We do not want to do that again. No one enjoyed that 
back in the mid-'90s.
    I can't tell you that the training will be monthly, ongoing 
training will be monthly. I don't imply that it will be 
monthly. What it will become part of is part of general 
military training that is ongoing: honor, courage, commitment, 
treating people with dignity and respect, all of that that goes 
into that. It will be part of that reoccurring thing.
    Secretary Stanley. And, Congressman West, I concur and echo 
what the admiral said. But I will also say that this is 
definitely not about changing people's beliefs and where they 
are. This is really about leadership, professionalism, 
discipline, and respect. It is about being good soldiers, 
sailors, airmen, marines, and Coast Guard.
    Mr. West. My only concern is that, as you all know, we are 
a military in combat, we are a military that is engaged, and 
there are so many training requirements that we already place 
out there on our units. And just the same as we have a 
government that places, you know, mandatory requirements and 
unfunded mandates on our State and local levels of government, 
I don't want to see us start to now, from a political aspect, 
mandate more training requirements, which takes away the 
training time that that young platoon leader, that young 
company commander needs to be able to have an effective, 
fighting force.
    Because what I saw as a Brigade S-3 was that the time that 
I spent having to do the ``consideration of others training,'' 
that was the time when guys were not at the rifle range, guys 
were not out there in the motor pool, guys were not out there 
shooting their artillery pieces.
    So, please, go back to the administration and tell them 
that they just opened up a third combat theater of operations. 
Now is really not the time to play around with the lives of our 
men and women that are out there in combat.
    Thank you so much, and I yield back.
    Mr. Wilson. Thank you, Colonel West.
    And we now have Ms. Pingree.
    Ms. Pingree. Thank you, Mr. Chair. I appreciate that. And 
thank you for the chance to talk about this a little bit more.
    I just want to address a couple of things that have been 
part of our discussion here. I mean, first, as far as both the 
costs and the continuing training go, I think I see this 
differently than some people in the conversation. I think this 
is a transition we are asking our military to make. And I, in 
fact, have tremendous faith both in the leadership, which you 
have talked about quite a bit, and the ability of the leaders 
in the military to help our soldiers and everyone else to make 
this transition, but also in our armed services personnel, 
themselves, across the country.
    I mean, we have been through a lot of transitions in the 
military, whether it was integrating the military, whether it 
was the huge role that women now play in the military, and I 
believe that you have always risen to the task and you have 
come forward. And so, I think this won't be something you have 
to talk about month after month after month. This is going to 
change the culture, and then it will be done. And I appreciate 
that. And that is why I emphasize, you know, the faster you can 
do it, I think the more it will be an old conversation that we 
won't have to continually have.
    So, that is my perspective on it.
    And the other side is the cost. People have brought that 
up. I appreciate the fact that you said it cost $10,000 for the 
training materials. And I, too, am impressed if we can do this 
for a relatively low cost.
    But I would also like to reiterate: Even if it costs us 
money to go through the training process, which I think you are 
being thorough and very thoughtful about, I see numbers from 
the GAO [Government Accountability Office] that say that the 
cost of discharges between 2004 and 2009 was $193.3 million. I 
know you are going to validate in writing what this costs.
    But discharging soldiers, 14,000 members of the military 
who have been let go because of their sexual orientation, it is 
not only unconscionable that these people who were willing to 
serve their country and came forward and were asked to leave, 
but the costs are horrendous.
    I was thinking about one of the soldiers that we have seen 
a lot about, Colonel Fehrenbach, who was highly decorated. It 
was $20 million worth of training that we put into his service, 
and then we asked him to leave.
    So, to me, this is not only an unfair and unreasonable 
policy for all the reasons we have already discussed, but it 
seems to me it has been very expensive. And as you have talked 
about earlier and I would be happy to hear you talk about more, 
we have lost many highly trained personnel, but losing anyone 
in the military is a trained soldier.
    So, yes, there may be some members of the military who 
choose to leave, but I find it hard to believe it will be equal 
to the cost of the numbers that have already left. And I think 
that is important to remember.
    I don't know if you have any comments about any of that.
    Well, thank you. I yield back my time.
    And I, again, appreciate the work that you are doing, and I 
hope that it continues at a rapid pace.
    Mr. Wilson. Thank you, Ms. Pingree.
    Ms. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    Just wondering, are men and women currently housed together 
in the barracks? Do they shower together, men and women 
soldiers?
    Admiral Gortney. No, ma'am.
    Mrs. Hartzler. Why not?
    Admiral Gortney. Well, good order and discipline. And they 
choose not to do it, leadership is smart not to do it, to keep 
them separated for good order and discipline.
    Mrs. Hartzler. Is it due to their sexual orientation?
    Admiral Gortney. No, ma'am, it is not. It is due to gender.
    Mrs. Hartzler. So there may be some opposite-sex attraction 
there, and so it would disrupt order and discipline if they 
showered together and were housed together. Is that correct?
    Admiral Gortney. By not separating the sexes?
    Mrs. Hartzler. Right.
    Admiral Gortney. That is correct.
    Mrs. Hartzler. How come, then--you said that this is due to 
sexual orientation, that there is not going to be any change in 
policy. What is the difference? It seems to me that you have a 
double standard here.
    Admiral Gortney. Well, one is because the gender is very 
public, and sexual preference is very private. And we are not 
asking about their sexual preference.
    Mrs. Hartzler. Well, I think you are not being consistent 
there.
    But I wanted to ask, will persons requesting reassignment 
for themselves or someone else due to their sexual privacy 
concerns be subject to negative fitness reports and other 
career penalties?
    Admiral Gortney. Absolutely not.
    Mrs. Hartzler. So you feel confident that they will feel 
comfortable going to their commanders and expressing concerns 
with that without being penalized in any way?
    Admiral Gortney. That is our intent, and that is what we 
hold our leadership accountable to do.
    Mrs. Hartzler. Okay. Shifting gears, I was a teacher, and 
so I care a lot about children. And as we are talking about 
training and education, I was wondering, what training and 
education is being required of family members and children and 
DOD family support programs, schools, childcare centers?
    Secretary Stanley. The family service centers, the Web 
sites, the family centers within the different services 
actually have training available on their Web sites. Military 
OneSource, some other sources are actually available on the 
Web, as well as doing them in their actual family centers. And 
commanders actually work toward that. It is not mandatory, not 
required, but certainly the training is there.
    Mrs. Hartzler. There is a lot of controversy, as you know, 
about different curriculum, LGBT [lesbian, gay, bisexual, 
transgender] curriculum in civilian schools. And I am just 
wondering, with the DOD schools, you know, will authorities 
make it possible for military families to have access to 
alternative education choices for their children which do not 
mandate the use of LGBT curriculum in classrooms or 
extracurricular activities on bases?
    Secretary Stanley. I think the question is pretty heavy. I 
would like to take that for the record and then take part of 
that. First of all--and the reason I am taking it for the 
record is because I am not versed in everything that is 
mandatory in the curriculum of our DOD schools.
    The big issue, though, also, is that most of our children 
are actually not in the schools. They are actually in the 
communities, you know, out in society. Most of them are.
    And so looking at that a little bit more holistically is 
why I want to take it for the record, look at the curriculum, 
and then get back to you on the specifics of where we are on 
that. Thank you for the question, though.
    [The information referred to can be found in the Appendix 
on page 67.]
    Mrs. Hartzler. Thank you.
    Thank you, Mr. Chairman. I yield back my time.
    Mr. Wilson. Thank you, Ms. Hartzler.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Admiral, have you ever had to dismiss anybody from the 
service?
    Admiral Gortney. I have.
    Mr. Scott. Was it because of their race?
    Admiral Gortney. No, it was not.
    Mr. Scott. How about their gender?
    Admiral Gortney. No, it was not.
    Mr. Scott. Their faith?
    Admiral Gortney. No, it was not.
    Mr. Scott. Sexual orientation?
    Admiral Gortney. Yes, it was.
    Mr. Scott. It was because of their sexual orientation.
    Admiral Gortney. My first command, VFA-15, had an incident 
shortly after Don't Ask, Don't Tell passed, that we--a young 
sailor came forward through his chaplain, through our chaplain, 
that he was gay, and we discharged him from the service.
    Mr. Scott. Did you discharge him from the service because 
he was gay or because he violated a standard of conduct?
    Admiral Gortney. Because he was gay.
    Mr. Scott. He did not violate a standard of conduct before 
he was dismissed?
    Admiral Gortney. He did not.
    Mr. Scott. That is not the answer I thought you would give, 
to be honest with you, Admiral.
    Admiral Gortney. It happens to be the truth.
    Mr. Scott. Well, I appreciate that. Sometimes we don't get 
that from testimony.
    Admiral Gortney. You are welcome, sir.
    Mr. Scott. So somebody was dismissed simply because of 
their sexual orientation, not because of the code of conduct.
    Admiral Gortney. Yes, sir. And it was, if I could explain 
the situation----
    Mr. Scott. Yes, sir.
    Admiral Gortney [continuing]. Because it kind of cuts 
through this whole issue, and it was a defining moment for this 
young commanding officer.
    A crusty old command master chief, my command master chief, 
walks up to me and says, ``Skipper, I have a problem.'' And, 
``Master Chief, what is your problem?'' He says, ``Well, 
Airman''--pick a name--``has come to me through the chaplain, 
and he is gay. I don't know how to handle this. I have never 
dealt with this before.'' I said, ``Master Chief, I have got 
it,'' and called the chaplain in.
    And the chaplain had been working with this young sailor 
for some time through the individual mental trauma that he was 
having with this particular issue, and the chaplain said, we 
need to bring it forward to the commanding officer. And that is 
how we handled it.
    And it was the chain of command working. And it was the 
chaplain doing his job, working, given the situation that was 
confronted with us with the law that was confronted with us.
    Mr. Scott. How long ago was this?
    Admiral Gortney. Oh, now you are testing. This would have 
been 1994, 1995 time frame, I believe it was.
    Mr. Scott. Sixteen, 17 years ago.
    Admiral Gortney. Yes, sir.
    Mr. Scott. Are you aware of any other incident where 
somebody has been dismissed simply because of sexual 
orientation?
    Admiral Gortney. I will have to get back to you on the 
record on the numbers of that. That was the one personal 
instance that I have had in my five command tours, that we had 
to do that.
    [The information referred to can be found in the Appendix 
on page 67.]
    Mr. Scott. And your testimony before this committee is that 
there has been no violation of the standard of conduct?
    Admiral Gortney. Not that I am aware of, no, sir.
    Now, there are instances where gays and lesbians were 
discharged but there were also personnel conduct that was 
resulted with it, that was a factor as well. But, in my case, 
that was not the case.
    Mr. Scott. Do you think that in most cases, though, that 
there is a violation of the standard of conduct associated with 
the dismissal?
    Admiral Gortney. I would say in very few cases is standard 
of conduct involved.
    Mr. Scott. Thank you.
    Mr. Wilson. Thank you, Mr. Scott.
    And, at this time, we will proceed to adjourn.
    And, again, I thank you for being here today.
    And I want to particularly thank the subcommittee members 
for being here today and remaining through the whole hearing.
    We are adjourned.
    [Whereupon, at 11:10 a.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             April 1, 2011

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 1, 2011

=======================================================================




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 1, 2011

=======================================================================

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 1, 2011

=======================================================================

      
             RESPONSES TO QUESTIONS SUBMITTED BY MR. SCOTT

    Secretary Stanley. The ``Don't Ask, Don't Tell'' Repeal Act of 2010 
(Public Law 111-321-Dec. 22, 2010) is, in fact, a stand-alone piece of 
legislation, and was not tied to the Military Appropriations Act. [See 
page 18.]

    Admiral Gortney. Since the ``Don't Ask, Don't Tell'' law was 
enacted in 1993, the Department of Defense has separated more than 
13,000 Service members under the law. [See page 28.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MRS. DAVIS
    Secretary Stanley. There have been two GAO reports that have 
addressed the costs to the Department of Defense of separating and 
replacing Service members separated under ``Don't Ask Don't Tell.'' The 
first report, released in 2005, estimated the cost to be at least $190 
million during the period of 1994 through 2003. In 2011, the GAO 
released its second report and calculated the cost to the DoD to be 
approximately $193 million during the period of 2004 through 2009. In 
total, the GAO has calculated the cost to the Department to be $383 
million for the period from 1994 through 2009. As the report states, 
these costs would generally include recruiting and training 
replacements, as well as the administrative costs associated with 
separating these Service members. [See page 21.]
                                 ______
                                 
            RESPONSE TO QUESTION SUBMITTED BY MRS. HARTZLER
    Secretary Stanley. After review of the Department of Defense 
Education Activity (DoDEA) curriculum standards, in particular Health 
Education Standards, DoDEA does not have a curriculum regarding LGBT 
that is taught in classrooms. One particular unit taught in high school 
health classes is titled ``Family Life & Human Sexuality''. This unit 
consists of ten standards and one standard addresses recognizing that 
there are individual differences in growth and development, body image, 
gender roles and sexual orientation. The text book used for this unit 
is published by Harcourt Education Company and is titled ``Lifetime 
Health''. Parents do have the right to opt out of any unit by 
contacting the school administration, the school counselor or the 
classroom teacher. An alternative curriculum will be provided for the 
material not taught. [See page 27.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
